No. 20-1155

 

 

IN THE

Supreme Court of the United States

JONAS DAVID NELSON,

Petitioner,
v.

STATE OF MINNESOTA,
Respondent.

On Petition for a Writ of Certiorari to the
Minnesota Supreme Court

BRIEF OF THE DUE PROCESS INSTITUTE
AS AMICUS CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,938 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 25, 2021.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
